               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




   Grievance Settlements and Payments
                Follow Up

                       Audit Report




                                         September 27, 2013

Report Number HR-AR-13-008
                                                                           September 27, 2013

                                            Grievance Settlements and Payments Follow Up

                                                                Report Number HR-AR-13-008



BACKGROUND:
National agreements between the U.S.            grievance settlements and payments has
Postal Service and four major unions            significantly improved since our prior
include grievance-arbitration procedures        audit. We reviewed 600 randomly
that Postal Service management,                 selected grievance case files from 10
bargaining unit employees, and union            districts and found that 503 (or 84
representatives must follow to resolve          percent) contained all required
workplace disputes, disagreements, and          documentation. However, 97 (or 16
complaints. The Postal Service paid             percent) did not contain one or more of
$97 million and $87 million in grievance        the required documents, such as written
settlements during fiscal years (FY) 2011       appeals, decision letters, and payment
and 2012, respectively.                         documentation. Of these, 46 did not have
                                                specific support for settlements and
In FY 2010 we conducted an audit of             payments, resulting in about $3.4 million
grievance settlements and payments and          in unsupported questioned costs.
found that management controls needed
to be strengthened. As a result, Postal         We identified various reasons
Service management issued additional            contributing to unsupported payments
guidance and enhanced internal controls.        and missing case file documentation, to
                                                include improper storage and transferring
We conducted this audit to follow up on         of case files and issues with grievance
prior findings. Additionally, we received       monitoring.
two hotline complaints regarding the
grievance-arbitration process, and the          We also conducted interviews and
U.S. Postal Service Board of Governors          reviewed grievance case files in response
expressed concerns over grievance               to the hotline complaints we received;
costs. Our objective was to assess              however, we did not find sufficient
internal controls over grievance                evidence to support that there were
settlement decisions and payments.              systemic issues related to the allegations.
Specifically, we evaluated whether the
grievance settlement decisions and              WHAT THE OIG RECOMMENDED:
payments were adequately supported              We recommended that management
and whether staff complied with                 issue a reminder in writing re-
established internal controls and               emphasizing the importance of adhering
documentation requirements.                     to the exisitng internal control guidelines
                                                for grievances.
WHAT THE OIG FOUND:
Management has strengthened internal            Link to review the entire report
controls, and documentation supporting
September 27, 2013

MEMORANDUM FOR:            DOUGLAS A. TULINO
                           VICE PRESIDENT, LABOR RELATIONS




FROM:                      Michael A. Magalski
                           Deputy Assistant Inspector General
                            for Support Operations

SUBJECT:                   Audit Report – Grievance Settlements and Payments Follow
                           Up (Report Number HR-AR-13-008)

This report presents the results of our follow-up audit of Grievance Settlements and
Payments (Project Number 13YG006HR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Andrea L. Deadwyler, deputy
director, Human Resources and Support, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Grievance Settlements and Payments Follow Up                                                                       HR-AR-13-008



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Internal Controls Over Grievance Settlements and Payments ........................................ 2

Hotline Complaints Concerning Grievance Procedures and Decisions ........................... 3

   Grievance Decisions and Instructions to Settle ........................................................... 3

   Decisions Not Matching Original Grievance, Simultaneous Filings, and Frivolous

         Grievances ............................................................................................................ 4

Recommendation ............................................................................................................ 5

Management’s Comments .............................................................................................. 5

Evaluation of Management’s Comments ......................................................................... 5

Appendix A: Additional Information ................................................................................. 6

   Background ................................................................................................................. 6

   Objective, Scope, and Methodology ............................................................................ 6

   Prior Audit Coverage ................................................................................................... 8

Appendix B: Monetary Impact ......................................................................................... 9

Appendix C: Grievance File Review - Missing Documents Results by District .............. 10

Appendix D: Management’s Comments ........................................................................ 11
Grievance Settlements and Payments Follow Up                                                         HR-AR-13-008




Introduction

This report presents the results of our follow-up audit of Grievance Settlements and
Payments (Project Number 13YG006HR000). Our objective was to assess internal
controls over grievance settlement decisions and payments. Specifically, we evaluated
whether the grievance settlement decisions and payments were adequately supported
and whether staff complied with established documentation requirements. This audit
was self-initiated based on hotline complaints1 we received and concerns expressed by
the U.S. Postal Service Board of Governors over grievance costs. See Appendix A for
additional information about this audit.

Most Postal Service bargaining unit employees are represented by one of the four major
unions.2 The national agreements signed by senior management and the four
union presidents include grievance-arbitration procedures that Postal Service
management, bargaining unit employees, and union representatives must follow. These
procedures provide guidance for resolving workplace disputes, disagreements, and
complaints. In fiscal year (FY) 2011 and FY 2012, the Postal Service paid $97 million
and $87 million, respectively, in grievance settlements. As a result, it is important to
continuously assess internal controls over grievance settlement decisions and
payments.

In FY 2010 the U.S. Postal Service Office of Inspector General (OIG) conducted an
audit of grievance settlements and payments. Our audit revealed that managment
controls over grievance settlements and disbursements needed to be strengthened,
oversight of the the grievance settlement process was not consistent among districts,
and that union representatives received grievance payments to which they may not
have been entitled. In response to our previous audit, the vice president, Labor
Relations issued a memorandum to area human resources and labor relations
managers detailing the Grievance and Arbitration Tracking System (GATS) internal
controls and the managers' responsibilities.

Conclusion

Management has strengthened the internal controls, and documentation supporting
grievance settlements and payments has significantly improved since FY 2010. We
reviewed 600 randomly selected grievance case files from 10 districts and found that
503 (84 percent) contained all required documentation and 554 (92 percent) of the
settlements and payments were adequately supported. However, 97 files did not
contain all of the required documentation, including 46 that did not have support for

1
  The OIG received two hotline complaints from labor relations personnel concerning grievance decisions and
procedures not being followed.
2
  The American Postal Workers Union, the National Association of Letter Carriers, the National Postal Mail Handlers
Union, and the National Rural Letter Carriers’ Association.

                                                         1
Grievance Settlements and Payments Follow Up                                                            HR-AR-13-008



settlements and payments, resulting in about $3.4 million in unsupported questioned
costs. We identified various reasons contributing to unsupported payments and missing
case file documentation, to include improper storage and transfer of case files, and
issues with grievance monitoring. See Appendix B regarding our monetary impact.

We also conducted interviews and reviewed grievance case files in response to the
hotline complaints we received regarding whether decisions were being made properly
and whether the established grievance procedures were being followed. We did not find
sufficient evidence to support the allegations.

Internal Controls Over Grievance Settlements and Payments

We determined that, generally, grievance payments were adequately supported and
staff complied with established internal controls. However, we identified a small number
of grievance payments that were not supported. We conducted interviews and reviewed
600 randomly selected grievance case files from 10 districts and determined the
following:

   503 (84 percent) contained all required supporting documentation.

   554 (92 percent) contained adequate support for settlements and payments.
    (Compared to 366 or 61 percent in FY 2010).

   97 did not contain all required supporting documentation,3 including 46 that did
    not include support for grievance settlements and payments. (In FY 2010 we
    identified 234 unsupported payments). See Appendix C for additional information on
    missing documentation.

   Eight of the 10 districts conducted periodic reviews of grievance case files to monitor
    compliance.

   Six of the 10 districts used GATS alerts4 to monitor grievance activity. Four districts
    did not use GATS alerts; however, two used other reporting features in GATS.5

Postal Service supervisors and managers are required to conduct periodic reviews to
ensure that grievance settlements are valid, accurate, and properly allocated and
should monitor grievance activity within their area of responsibility using GATS alerts.
They are also required to maintain the following supporting documentation in grievance
case files:6


3
  These cases were missing one or more of the required documents such as written appeals, time extension
agreements, decision letters, and payment documentation.
4
  Alerts can be set in GATS to notify users of grievance activity based on established criteria such as the number of
grievances over a certain payout amount.
5
  GATS also provides automatically scheduled reports such as pending cases.
6
  Employee and Labor Relations Manual 34, Appendix-Records Control Schedules, March 2013. Grievance and
Arbitration Tracking System Internal Controls; February 3, 2011.


                                                           2
Grievance Settlements and Payments Follow Up                                     HR-AR-13-008



   Explanation of original grievance to include written appeals.

   Documentation of time extension agreements, if necessary.

   GATS decision letters that document the reason for the settlement and timeframes
    of the incident.

   Documentation that explains how management determined the payment amount.

   Informal adjustment letters that include the issues and timeframes of the dispute and
    the names of each individuals and amounts to be paid.

Labor relations managers were not aware of the requirement to use GATS alerts or that
the alert feature existed. Regarding the case files that were missing required
documentation and the 46 unsupported grievance payments, human resources and
labor relations managers indicated various reasons that contributed to these issues, to
include:

   Files were misplaced while being transferred.
   Incomplete files were transferred.
   Files were not stored properly.

As a result, there is no assurance that at least $3.4 million in payments were justified in
FYs 2011 and 2012. See Appendix B for our calculation of unsupported questioned
costs.

Hotline Complaints Concerning Grievance Procedures and Decisions

The OIG received two hotline complaints from labor relations personnel in two districts
regarding grievance procedures. Concerns were raised over whether decisions were
being made properly and whether the established grievance procedures are being
followed.

Grievance Decisions and Instructions to Settle

In one district, a labor relations manager indicated the staff was instructed to settle
grievances that he believed should be denied or negotiated. The manager also
expressed concern over settlements made at the area level.

We interviewed other labor relations personnel in that district regarding the hotline
complaint. Although they agreed with the complainant, they could not provide
documentation because they stated the instructions to settle were given verbally. We
also interviewed area labor relations personnel about grievances they settled. They
indicated that grievance decisions were based on merit or impact to the Postal Service.
Potential settlement amounts are also considered when deciding to settle a grievance.




                                               3
Grievance Settlements and Payments Follow Up                                   HR-AR-13-008



After conducting our interviews, we noted isolated issues with communication between
individuals at the area and district levels that may have contributed to
misunderstandings regarding why grievances were being settled. Those individuals are
no longer involved in the grievance process for this district, and as a result, we believe
communication will improve.

Additionally, we reviewed 15 randomly selected grievance case files from the district to
assess issues related to the complaint. The files included a clear explanation of the
issue or violation, the remedy sought, and the decision and payment rendered. As a
result, we did not find evidence to support the allegation and will not make a
recommendation on this matter.

Decisions Not Matching Original Grievance, Simultaneous Filings, and Frivolous
Grievances

In a second district, an operations manager indicated area labor relations personnel
made settlement decisions that did not match the original grievance filed. The manager
also alleged that unions filed grievances and appeals simultaneously, and that union
stewards filed frivolous grievances.

The complainant provided examples of grievances in which area level decisions did not
match the original grievance. However, we interviewed area labor relations personnel
and they stated that grievances can be settled based on contract language not cited in
the original grievance to apply the most appropriate section of the collective bargaining
agreements.

The complainant also provided a few examples of grievances and appeals that were
filed simultaneously. We reviewed the collective bargaining agreements and found that
they stipulate the timeframes for filing grievances and appeals, and the requirement to
wait for management’s response within the contractual timeframes before appealing to
the next level. We also interviewed labor relations officials, who stated simultaneous
filings were rare, but when it happens, they work with the appropriate union officials to
resolve the issues.

Regarding frivolous grievances, we reviewed the documents provided by the
complainant and interviewed district and area labor relations personnel. They agreed
some grievances can be viewed as frivolous; however, in accordance with the collective
bargaining agreements, employees have the right to file grievances.

We reviewed 15 randomly selected grievance case files from the district and did not find
any that supported the complaint. Based on the interviews and documentation we
reviewed, we did not identify any systemic issues and, as a result, we will not make a
recommendation regarding these issues.




                                               4
Grievance Settlements and Payments Follow Up                                    HR-AR-13-008




Recommendation

We recommend the vice president, Labor Relations, direct district managers, Labor
Relations, to:

1. Issue a reminder re-emphasizing to managers the importance of adhering to existing
   internal control guidelines, specifically as they relate to using Grievance Arbitration
   Tracking System alerts to monitor grievance activity and document handling to
   ensure completeness of grievance case files.

Management’s Comments

Management agreed with the recommendation and plan to reissue its February 3, 2011,
memorandum on Grievance and Arbitration Tracking System Internal Controls to the
Managers, Labor Relations (District) with an emphasis on GATS alerts and file
documentation.

Management disagreed with the conclusion of a potential $3.4 million in unsupported
questioned costs identified in the report, stating that missing settlement documentation
in a case file does not necessarily correlate to unsupported and questionable costs.
Management further stated they conducted a review of grievances we identified in the
audit, using GATS. They stated their review revealed that all grievances contained
decision letters; however, 21 decision letters were missing the names of the payee in
the decision and of the 21 grievances, only two lacked the requisite justification for the
payout. See Appendix D for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation and
corrective actions should resolve the issues identified in the report.

While management agreed with our recommendation, they did not agree with the
unsupported questioned costs. We projected the monetary impact using a 95 percent
confidence level based on our review of 600 statistically sampled grievance case files.
In addition, our review of case files was conducted from March through April 2013, and
identified grievance payments that were not supported by adequate documentation. We
assessed the grievance data contained in GATS and the hard copy case files at that
time, and management has not provided any additional support for the payments we
identified. As a result, we consider the monetary impact to be valid.

The OIG considers the recommendation significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. This recommendation should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendation is closed.



                                               5
Grievance Settlements and Payments Follow Up                                 HR-AR-13-008




                           Appendix A: Additional Information

Background

Most Postal Service bargaining unit employees are represented by one of the four major
unions. The national agreements signed by senior Postal Service management and the
four union presidents include grievance-arbitration procedures that Postal Service
management, bargaining unit employees (also referred to as craft employees), and
union representatives must follow. These procedures allow bargaining unit employees
and the unions to resolve workplace disputes, disagreements, and complaints. The
Postal Service paid $97 million and $87 million in grievance settlements during FYs
2011 and 2012, respectively.

The grievance procedures generally consist of four steps. The first step requires
bargaining unit employees who feel aggrieved to discuss the issues with their
immediate supervisor. The supervisor has authority to settle the grievance at any time.
However, if they do not reach a resolution, the employee can file a formal grievance
through the union or the union can do so on its own initiative. The next three steps
involve formal discussions between postal officials at the appropriate level (local,
regional, or national) and union representatives. The procedures also allow the appeal
of unresolved grievances to arbitration, where a Postal Service and union selected
arbitrator make a binding decision.

The GATS is a web-based tool used primarily by headquarters and field labor relations
and human resources personnel to monitor and track grievances and pending
arbitrations. Labor relations specialists also use the GATS to process lump-sum pay
adjustments resulting from grievance decisions. The GATS allows users to create and
retain grievance decision letters. Operations and Finance personnel also use the GATS
when processing pay adjustments.

Objective, Scope, and Methodology

Our objective was to assess internal controls over grievance settlement decisions and
payments. We also evaluated whether staff complied with established internal controls
and documentation requirements. The project scope included the review period from FY
2011 through FY 2012. Additionally, the OIG reviewed two hotline complaints regarding
the grievance-arbitration process to determine whether there was support for the claim.

To accomplish our objective, we determined whether grievance settlement decisions
and payments were supported with written documentation. Specifically, we reviewed a
random sample of 600 grievance payments from 10 of the 67 Postal Service districts.
This sample included 60 grievance payments from the 10 selected districts. In addition,
we reviewed contracts between the Postal Service and the four major unions and the
Employee and Labor Relations Manual for any relevant information on the Postal
Service’s responsibilities related to grievance payments. We sent emails to each of the



                                               6
Grievance Settlements and Payments Follow Up                                HR-AR-13-008



10 districts requesting documentation to support grievance payments. We received
responses for all 600 grievance payments and reviewed supporting documentation for
each.

We contacted the districts and requested additional information pertaining to missing
documents or reasons they were unable to provide additional information. We also
interviewed area and district management as well as labor relations personnel in
association with the hotline complaints. This was done to gain an understanding of the
complaints and to determine whether there was support for the claim.

We conducted this performance audit from October 2012 through August 2013 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on August 27, 2013, and included their
comments where appropriate.

We relied extensively on computer-processed data contained in the GATS and
Enterprise Data Warehouse. We traced sampled data to source documentation as a
part of our review to determine whether we can rely on those systems. We also
interviewed officials knowledgeable about the data and concluded that the GATS data
were reliable to support the audit findings.




                                               7
     Grievance Settlements and Payments Follow Up                                    HR-AR-13-008




    Prior Audit Coverage

                                                          Final
                                                         Report       Monetary
          Report Title              Report Number         Date         Impact
Grievance Settlements and            HR-AR-10-003       7/1/2010     $27.8 million
Payments
Report Results: Grievance payments were often not supported by adequate
documentation and, as a result, $27.8 million in unsupported questioned costs were
identified. It was also found that oversight of the grievance settlement process was
not consistent among the districts and that the union representatives received
grievance payments to which they may not have been entitled. Management
agreed with one recommendation and had implemented an internal control process
in response to Sarbanes-Oxley Act of 2002 requirements. They also stated that
they have an extensive list of training courses. Management disagreed with several
aspects of the report, including the conclusion that grievance payments were often
not supported by adequate documentation. Management also disagreed with the
monetary impact.

Grievance Overpayments in           HR-AR-10-001      3/8/2010       $1.67 million
the Baltimore District
Report Results: The Baltimore District made grievance overpayments of about
$1.67 million. The Postal Service agreed with our recommendations and has
initiated action to recover these overpayments. We also found that internal controls
over disbursements of grievance payments were insufficient.




                                                    8
Grievance Settlements and Payments Follow Up                                                          HR-AR-13-008




                                      Appendix B: Monetary Impact

           Recommendation                       Impact Category                              Amount
                 1                      Unsupported Questioned Costs7                       $3,388,305

We estimated the unsupported questioned costs using a two-stage sampling
methodology. First, we reviewed a sample of 600 grievance payments from 10 districts
for support documentation. Table 1 provides what we observed in our sample. We then
used two-stage sampling8 theory to project our observations to the universe. The total
dollar value for our universe was $183,995,146: $97,237,758 in FY 2011 and
$86,757,388 in FY 2012 for the 67 Postal Service districts. Based on our findings, we
are 95-percent confident that at least $3,388,305 worth of grievance payments were
unsupported in FYs 2011 and 2012.

                  Table 1. Grievance File Review – Unsupported Payments
                                     Results by District

                                                Sample            Unsupported Payments
                       District
                                             Dollar Value         Number          Dollar Value
               Alabama                         $14,599.07                  2           $5,020.00
               Capital                           6,111.61                 17            2,296.91
               Cincinnati                        4,696.26                  4              135.22
               Colorado/Wyoming                  5,332.02                  5            1,335.87
               Greater Indiana                  10,698.98                  7            1,086.10
               Honolulu                          5,722.66                  3              350.00
               Mississippi                      12,950.00                  0                0.00
               Northern Ohio                     8,477.90                  2              490.50
               Richmond                          9,038.59                  6            1,722.50
               South Florida                     3,343.96                  0                0.00
               Sample Results
               Total                           $80,971.05                 46          $12,437.10
              Source: OIG analysis.




7
  A weaker claim and a subset of questioned costs. Claimed because of failure to follow policy or required procedures
but does not necessarily connote any real damage to Postal Service.
8
  Sampling from a population whose members are themselves sets of objects and then sampling from the sets
selected in the first sampling.


                                                          9
Grievance Settlements and Payments Follow Up                                                        HR-AR-13-008




   Appendix C: Grievance File Review - Missing Documents Results by District


                                                                                          Informal
                                Written Decision   Payment                              Adjustment
          Districts             Appeals  Letters Documentation                          Information
       Alabama                         3        1            2                                     0
       Capital                        13       16           17                                     0
       Cincinnati                      3        2            4                                     0
       Colorado-
       Wyoming                            1               2                        5                   5
       Greater Indiana                   16              10                        7                  10
       Honolulu                           3               2                        3                   0
       Mississippi                       17               5                        0                   0
       Northern Ohio                     12               0                        2                   0
       Richmond                           7               5                        6                   5
       South Florida                      2               2                        0                   6
       Total*                            77              45                       46                  26
       Note: *Although we identified 97 files with missing documentation, some files were missing multiple
       documents; therefore, the totals shown in the table do not equal 97.
       Source: OIG analysis.




                                                       10
Grievance Settlements and Payments Follow Up                 HR-AR-13-008



                         Appendix D: Management’s Comments




                                               11
Grievance Settlements and Payments Follow Up        HR-AR-13-008




                                               12
